©I

OB'

Case #:
THE SUPREME COURT OF THE UNITED STATES

Original Case Number: 19CV3052

Tamara Rouhi
Plaintiff/Appellant

Original Case/Complaint/Exhibits
Filed: 10/18/19
r::r>, iq />-,>
i,..

V

Appellate Coxirt, Case Number: i /; i
20-1791
|i ;i ffa n ;■/)/ h m

Kettler et al
Defendants/Appellee

A review from the US Court of
Appeals for the Fourth Circuit.
Civil Case.
Jury not requested.

PETITION FOR REVIEW & WRIT OF CERTIORARI
Thomas Thomas and
Tamara Rouhi
Whiteford, Taylor &
Preston 7 St. Paul Street, 14th
floor Baltimore, MD 21202

Hafer LLP
WoodHolme Center

125 Fennington Circle
Owings Mills MD 21117

18009878705

1829 Reisterstown Rd, Ste

4105228217

Counsel for Kettler

200

Pro Se Plaintiff/Appellant

Law Offices of Jonathan P.

Baltimore, MD 21208

Stebenne 100 South Charles

4106530460

Street, Suite 1101 - Tower II

Counsel for Habitat

Baltimore, MD 21201

America■

4107520575
Counsel for Habitat America

FILED
MAY 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i

ISSUES PRESENTED

1. There has been no redress of my grievance.

2. The Defendants did not make a single valid point, but still prevailed in
the case. That is unjust.

3. My rights were violated by Federal District Court of Maryland and the
US Court of Appeals for the Fourth Circuit.

4. I’d like the previously mentioned injustices to be corrected.

z

I. PARTIES

Plaintiff/Appellant
Tamara Rouhi
125 Fennington Circle
0wings Mills MD 21117

Defendants/Appellees
The Defendants

Represented by

Kettler

Whiteford, Taylor & Preston

8255 Greensboro Drive

7 St. Paul Street, 14th floor

Suite 200

Baltimore, MD 21202

McLean, VA 22102
Habitat America

Law Offices of Jonathan P. Stebenne
100 South Charles Street, Suite 1101 -

180 Admiral Cochrane Drive,
Suite 200
Annapolis, MD 21401

Tower II
! Baltimore, MD 21201
Thomas Thomas and Hafer LLP
WoodHolme Center
1829 Reisterstown Rd, Ste 200
Baltimore, MD 21208

3

II. PREVIOUS PROCEEDINGS
The Original case (Tamara Rouhi V Kettler et al, Case #19CV3052)
was filed at the United States District Court, District of Maryland,
Baltimore, on 10/18/19. Judgment granting the Defendant’s Motion to
Dismiss was entered on 6/24/20.
An Appeal was filed at the United States Court of Appeals for the
Fourth Circuit (Tamara Rouhi V Kettler et al, Case #20-1462), and
“judgement” by a clerk was entered on 12/21/20 and 1/12/21.

H

III. TABLE OF CONTENTS
Section Number
I
II
III
IV
V
VI
VII
VIII
IX
X

XI
XII
XIII
XIV
XV

Section Title
COVER PAGE___________________
ISSUES PRESENTED FOR REVIEW
PARTIES
PREVIOUS PROCEEDINGS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
CITATION OF JUDGEMENTS
BASIS FOR JURISDITION
STATUTORY PROVISION
RULE 29.4 COMPLIANCE
AUTHORITIES
SUMMARY OF THE CASE
ARGUMENT
PROPOSED ORDER
POINTS AND AUTHORITIES
REPRESENTATION STATEMENT

Page Number
1
2
3

4
5
6
7

7-8
8

8
8
8-9
9-13
13
13
13

D

IV. TABLE OF AUTHORITIES
Statute Title

Code

Page

Article III, Section 2, US Constitution Article III, Section 2, US
Constitution
Breach of Contact
MD §22-701

8

Certiorari

28 U.S. Code § 1254

8

Civil Rights

The Civil Rights Act of 1964, title
II
18 U.S. Code §242

12

28 U.S. Code §1332

7

Deprivation of Rights Under Color of
Law
Diversity Jurisdiction
Embezzlement

8

11,12

Exploitation of the poor and disabled

18 U.S. Code § 641, 18 U.S. Code 8
§ 1012
MD § 8-801
9

Federal Question

28 U.S. Code §1331

7

Final decisions of district courts

28 U.S. Code §1291

8

First Amendment
Fourth Amendment

US Constitution
US Constitution

10,13
9

Fraud

18 U.S. Code § 1001,18 U.S. Code 8
§ 1002, MD § 8-501(1)_________

Harassment

MD § 3-803

8

Interference with exercise of rights

MD § 20-708

9

Larceny

8

Malicious Trespass

10 U.S. Code § 921-121
(4th amendment)
MD § 6-403

Obstruction of Justice

18 U.S. § 1505

13

Smoking Restriction Exceptions
Stalking

MD Health-Gen Code § 24-505
MD § 3-802

9
9

Summary Judgement

US Civil Rule 56

Supplemental Jurisdiction

28 U.S. Code § 1367

7

Theft of Artwork
Thirteenth Amendment

18 U.S. § 668
US Constitution

8
12

9

6'

VI. CITATION OF JUDGEMENTS
Judgement in Tamara Rouhi V Kettler et al, Case #19CV3052, U.S.
District Court, Maryland, 2020, can be found on page 3 of Appendix I.
Memorandum is included.
Judgement in Tamara Rouhi V Kettler et al, Case #20-1462, U.S. Court
of Appeals, Virginia (4th Cir.), 2020, can be found on page 10 of Appendix I.
An unpublished opinion follows.

VII. BASIS FOR JURISDITION
Rule 14,E, I, is satisfied section in section III.
The Basis for Jurisdiction in Tamara Rouhi V Kettler et al, Case
#19CV3052, US District Court, Maryland, 2020, was Diversity Jurisdiction
(28 U.S. Code §1332), Federal Question Jurisdiction (28 U.S. Code §1331),
and Supplemental Jurisdiction (28 U.S. Code §1367). I am aware that
Diversity Jurisdiction alone is not sufficient enough to have complex issue
of state law reviewed by the Federal District Court of Maryland, but the
combination of Diversity Jurisdiction and Federal Question Jurisdiction is
enough to include Supplemental Jurisdiction.
The Basis for Jurisdiction in Tamara Rouhi V Kettler et al, Case
#20-1462, U.S. Court of Appeals, Virginia (4th Cir.), 2020, is: The United

7

States Court of Appeals for the Fourth Circuit has jurisdiction over The
Federal District Courts of Maryland (28 U.S. § 1291).
The Basis for Jurisdiction in Tamara Rouhi V Kettler et al, Case
#

US Supreme Court, DC, 20.

is that the United

States Supreme Court has jurisdiction over The United States Courts of
Appeals (Article III, Section 2 of the US Constitution).

VIII- STATUTORY PROVISION
28 U.S. § 1254 states that judgments in the US Court of Appeals may
be reviewed by the US Supreme Court by getting a Writ of Certiorari
granted.

IX. RULE 29.4 COMPLIANCE
Service under this subsection does not apply to this case.
X. AUTHORITIES
Rule 14 F is satified in section V and Appendix II.

XI. SUMMARY OF THE CASE
Rule 14 G II is satified in section VII.
I am a resident at Timbercroft Townhomes, which was owned by
Kettler until mid 2016, when Habitat America took over the company.
The injustices that I have experienced while living at Timbercroft
Townhomes include, but are not limited to, Theft of artwork (18 U.S. § 668):
Larceny (10 U.S. Code § 921-121), Embezzlement (18 U.S. Code § 641, 18
U.S. Code § 1012), Fraud (18 U.S. Code § 1001, 18 U.S. Code § 1002, MD §
8-501(1)), Breach of Contact (MD §22-701), Harassment (MD § 3-803),

*3

Stalking (MD § 3-802), Malicious Trespass (MD § 6-403), Exploitation of
the poor and disabled (MD § 8-801), Interference with exercise of rights
(MD § 20-708), Abuse of process, invasions of privacy, violations of rights
granted by Maryland (MD Health-Gen Code § 24-505), violations of rights
granted by America (the 4th amendment), and violations of the covenant of
quiet enjoyment.
Timbercroft employees forced me to move to a subpar unit in the
community through deceptive practices and intimidation, repeatedly
robbed me, and subjected me to nonstop harassment and inhumane
conditions. I was also subjected to ridiculous lease terms, while
Timbercroft failed to hold up their end of the contract.
I dont feel like my home is mine, as Timbercroft employees entered it
as they pleased, while simultaneously creating a constant threat of
homelessness. They have created an extremely abusive and stressful
environment, and continuously subjected me to reckless and negligent
behavior. They have prevented the enjoyment of my home, my community,
and life m general. The emotional distress that they have caused is
indescribable, and I would like to be compensated for being a victim of
Timbercroft’s crimes.”

Above is an extract from the Original Complaint. None of the
facts/claims in it have been disputed as false by the courts, yet
judgement was still made in favor of the Defendant.
Additionally, any claims of insufficiency regarding the legal p rocess
of the plaintiff were lies. The outcome of this case was clearly unjust.

XII. ARGUMENT
My petition should be granted because the previous courts have so far
departed from the accepted and usual course of judicial proceedings that
someone must step in and correct their clear errors.

The United States District Court of Maryland
My argument will focus on the Memorandum Opinion that was filed
with the Order that granted the Defendant’s Motions to Dismiss (Appendix
I P. 4). This Memorandum Opinion is by Judge Stephanie A. Gallagher and
is titled Letter Opinion.
On page 1 of the Letter Opinion, at the end of the first paragraph, the
judge states that the case is dismissed because of a lack of subject matter
jurisdiction. This is clearly false, and is simply an excuse to violate my
First Amendment Rights (US Constitution).
On page 2 of the Letter Opinion, the judge states that the Plaintiff did
indeed cite Federal law, a requirement that the judge previously stated
was not met, but that the federal claims were frivolous. There are no
frivolous laws. She also states that I have no private right of action,
something heavily discussed during the case between the parties, and
something that is very clearly false. There are other issues that were
brought up by the judge that don’t apply to this case on page 2, such as
Simple reference to federal statutes or constitutional provisions is
insufficient to establish federal question jurisdiction, where no colorable
claim exists . This statement is not only false, but there were hundreds of
lines of text containing claims.

10

My response to page 3 is that the district courts of America have
original jurisdiction over all civil cases arising under any federal law. To
try to limit this in any way is a deprivation of my rights as an American,
and clearly a crime.
On page 4 the judge continues to bring up things that were already
addressed in my responses to the defendants, and I feel that my previous
responses to these “issues” are more than enough.
Page 5 is another long-winded attempt to deny the plaintiff access to
the laws of this country.
Page 6 is a reiteration that the Plaintiffs First Amendment Rights will
not be honored at the District Courts of Maryland, or, at least not at the
Baltimore location.
The outcome of this case is clearly incorrect in terms of law, and ethics.
The judge was a bully, who purposely delayed relief, or any form of justice,
through lies. I have been treated unfairly by the court, just as I was treated
unfairly at the Defendant’s business.

The United States Court of Appeals for the Fourth Circuit
The United States Court of Appeals for the Fourth Circuit was no
better than the United States District Court of Maryland. Instead of
reviewing my case, The United States Court of Appeals for the Fourth
Circuit had a clerk send me a document which said “Judgement” and close

il

the case. I did not receive a signed order from a judge, which I am entitled
to. This is disgraceful and it is not due process.
The fraudulent judgement was accompanied by an unpublished opinion
by an unknown person that was full of fictitious or irrelevant information. I
was later sent a Mandate by the clerk that stated that their previous
judgement was now in action. I doubt my Appeal was even read by anyone
at the court house.
Conclusion
The previous Court Houses gave me the run-around, and treated me
like I did not matter. I did not contact these Court Houses to be social, I
contacted them to excersise my rights as an American and to get what is
owed to me. Although the previous Court Houses refused to honor it, the
ownership of people/slavery was abolished in the Thirteenth Amendment
of the US constitution. No one is required to socialize with these people
against their will, through deception, under the guise of justice or official
business. If the employees of these Court Houses want to play games and
hurt people, they should do so on their own time, as I am entitled to redress
of my grievances.
In addition to the defamation and abuse of a Country and a Citizen, the
previous Courts have deprived me of rights (18 U.S. Code § 242), denied me
equal access to the laws of this country (Civil Rights), violated my First

/X

Amendment Rights (US Constitution), obstructed justice (18 U.S. § 1505),
and treated my case like a joke. These injustices must be corrected.

XIII. PROPOSED ORDER
I propose that the order state something along the lines of: The
Plaintiffs Petition for Writ of Certiorari is granted.

XIV. POINTS AND AUTHORITIES
I am entitled to equal access to the judicial system (Civil Rights), and
anything other than that is an Obstruction of Justice.

XV. REPRESENTATION STATEMENT
I, Tamara Rouhi (Pro Se), represent the Plaintiff (Appellant), Tamara
Rouhi, in the review of this case. All research and documents were done by
Tamara Rouhi, with no direct help from an attorney.

I certify, under penalty of perjury, that the information in this
document is true to the best of my knowledge.

Tamara Rouhi
Pro Se

13

